<html>
<title> - OVERSIGHT OF THE MILLENNIUM CHALLENGE CORPORATION</title>
<body><pre>[Senate Hearing 116-227]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-227

                      OVERSIGHT OF THE MILLENNIUM 
                         CHALLENGE CORPORATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                            DECEMBER 4, 2019

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


                   Available via the World Wide Web: 
                         http://www.govinfo.gov


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-845 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Risch, Hon. James E., U.S. Senator From Idaho....................     1


Menendez, Hon. Robert, U.S. Senator From New Jersey..............     2


Cairncross, Hon. Sean, Chief Executive Officer, Millennium 
  Challenge Corporation, Washington, DC..........................    12
    Prepared statement...........................................    14


              Additional Material Submitted for the Record

Foreign Policy Report Submitted by Senator Robert Menendez.......     3


Material Submitted for the Record by Senator Robert Menendez.....     6


Material Submitted for the Record by Senator Robert Menendez.....     9


Material Submitted for the Record by Senator Robert Menendez.....    10


Responses of Hon. Sean Cairncross to Questions Submitted by 
  Senator Robert Menendez........................................    33


Letter to Jonathan Nash From Senator Robert Menendez.............    36


                             (iii)        

 
           OVERSIGHT OF THE MILLENNIUM CHALLENGE CORPORATION

                              ----------                              


                      WEDNESDAY, DECEMBER 4, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch, Gardner, Isakson, Young, Menendez, 
Cardin, and Shaheen.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The Foreign Relations Committee will come to 
order.
    Thank you so much for being here today, Mr. Cairncross.
    Fifteen years ago, the administration and advocates for 
effective foreign aid united behind a simple concept: It is in 
the U.S.'s interests to help countries help themselves by 
breaking down the constraints to market-based growth. And from 
this concept, the Millennium Challenge Corporation was born.
    The MCC, as it is known, recognizes that aid is only 
effective in countries that demonstrate continuous commitment 
to good governance, economic freedom, investing in their own 
people, and, most importantly, a government free of economic 
corruption and theft. Its competitive, data-driven selection 
process creates an important incentive for countries to adopt 
difficult but necessary reforms.
    Its focus on accountability for results helps ensure that 
the impact of MCC investments will endure long after the 
compact has ended.
    And its commitment to transparency, monitoring, evaluation, 
and learning is helping the U.S. and others do more of what 
works and less of what does not.
    Mr. Cairncross, expectations for MCC are high. You have 
taken the helm following an extended period of drift, during 
which time the agency has not performed, and its commitment to 
the principles that make it special have been challenged. The 
American people deserve better. This moment, however, also 
presents an important opportunity to innovate and reinvigorate.
    I note the board's recent decision to hold Ghana 
responsible for failing to uphold the terms of its second 
compact. No doubt this was a difficult decision to reach. 
Terminating aid for a trusted ally of many years could not have 
been easy, but it was the right thing to do. I trust that you 
will apply the same measure of accountability to other partners 
should they fail to maintain eligibility or stray from binding 
commitments.
    Moreover, I expect to see you hold the agency itself 
accountable. It is essential that MCC uphold its foundational 
principles, particularly its commitment to transparent, data-
driven selection, design, monitoring, and evaluation processes, 
without political interference.
    This hearing presents an important opportunity for you to 
set out your vision for MCC over the next 15 years. I am eager 
to hear how you intend to restore effective leadership, harness 
innovation, and accelerate regional economic integration 
through the use of concurrent compacts, particularly in Africa 
where opportunities for growth and U.S. partnership transcend 
national boundaries.
    We also want to learn more about MCC's efforts to work with 
the newly established Development Finance Corporation to 
accelerate private sector-led growth while providing a viable 
alternative to China's malign development model.
    The stakes are high and the challenges are many, but we 
trust that you are up to the task or, of course, you would not 
be sitting here today. Our expectations are high.
    With that, I recognize the ranking member, Senator 
Menendez, for his remarks.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. Thank you for 
holding today's Millennium Challenge Corporation's oversight 
hearing.
    And thank you, Mr. Cairncross, for testifying before the 
committee.
    Prior to Mr. Cairncross' confirmation, there were several 
news reports about a growing toxic work culture at MCC: blatant 
cultural insensitivity and offensive communications from one of 
the acting CEOs; repeated near violations of the Hatch Act; 
declines in the diversity of MCC's workforce; and concerns from 
development professionals that the traditionally data- and 
results-driven development organization was taking on a 
distinctively unproductive political mission.
    Unfortunately, it seems that the White House Presidential 
Personnel Office's peculiar abuse of MCC's administratively-
determined hiring authorities to appoint a number of 
questionably qualified but well-connected job seekers at MCC 
was primarily responsible.
    In addition to our own internal information, the Washington 
Post diligently documented PPO's fraught hiring decisions and 
MCC's changing working environment throughout 2018. And I ask 
unanimous consent to enter into the record the Post's series of 
investigative reports.
    The Chairman. It will be entered.

    [The information follows:]

        Foreign Policy Report Submit by Senator Robert Menendez

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      Material Submitted for the Record by Senator Robert Menendez

  white house uses foreign aid agency to give jobs to trump loyalists

                         By Robert O'Harrow Jr.

    Washington Post, July 28, 2018. The White House has assumed control 
over hiring at a small federal agency that promotes economic growth in 
poor countries, installing political allies and loyalists in appointed 
jobs intended for development experts, according to documents and 
interviews.
    Until the Trump administration, only the chief executive and 
several other top officials of the Millennium Challenge Corporation 
(MCC) were selected by the White House, former agency officials said. 
The chief executive, in turn, used authority granted to the agency by 
Congress to appoint about two dozen other staffers, primarily for their 
technical expertise.
    But starting last year, the White House began naming political 
appointees to the lower-level positions, according to internal rosters 
obtained by The Washington Post and interviews with former employees 
and other knowledgeable people. The employees were warned by an agency 
leader they could lose their jobs to make way for the new political 
appointees, the former employees said.
    Fourteen allies and Trump loyalists have been placed at the agency 
as political appointees so far--more than double the number of 
political staff on the day the president took office, the rosters show. 
Among them are a 2016 college graduate with a degree in English 
literature whose grandmother is a senior personnel official in the 
White House and a recent congressional intern who graduated in May with 
a master's degree from the Johns Hopkins University School of Advanced 
International Studies.
    The White House's reach into MCC operations sheds new light on the 
administration's appointment process and shows how even obscure parts 
of the federal bureaucracy traditionally viewed as nonpartisan are 
being drawn into partisan orbits.
    In recent weeks, Sen. Robert Menendez (N.J.), the ranking Democrat 
on the Foreign Relations Committee, put a hold on a water project in 
Mongolia while congressional investigators examined the impact of the 
Trump appointments at MCC. Two weeks ago, he lifted the hold as part of 
a negotiation with Senate Republicans for limited access to MCC resumes 
and other personnel documents.
    In a statement to The Post, Menendez condemned the administration's 
``practice of replacing seasoned professional and programmatic experts 
with patronage hires.'' He said that ``blind loyalty seemingly trumps 
qualifications, experience and career public servants.''
    ``Congress gave MCC special hiring authority so that it could 
operate with efficiency and effectiveness, not so that it could become 
a dumping ground for unqualified partisan loyalists and lackeys,'' 
Menendez wrote.
    A Republican Foreign Relations Committee aide speaking on the 
condition of anonymity offered a more upbeat assessment.
    ``We were happy to work with our Democratic counterparts in 
resolving questions about hiring at MCC as we do regularly in 
exercising the committee's oversight function,'' the aide said. ``Such 
oversight is important for all agencies under the committee's 
jurisdiction, and we will continue working in a bipartisan manner 
moving forward.''
    Menendez is continuing to examine the matter, according to 
spokesman Juan Pachon.
    The White House and MCC have not responded to repeated questions 
and requests for interviews.
    The Millennium Challenge Corporation dates to the early days of the 
administration of George W. Bush, which sought to create a technocratic 
alternative to sometimes wasteful, politically tinged foreign-
assistance programs. Bush said he wanted such programs to be keyed to 
internal reforms and economic growth in client countries, and ``defined 
by a new accountability'' and measurable outcomes.
    White House officials have not made clear to Capitol Hill or agency 
officials the exact reasons they are filling the appointed jobs. ``They 
have just claimed those 30 jobs are [the White House's],'' said an 
official familiar with the political operation at MCC who spoke on the 
condition of anonymity for fear of retribution.
    In September, the White House appointed a political liaison to the 
agency--apparently the first in its history. Six employees have been 
reassigned to make room for Trump appointees. Those reassigned include 
the agency's chief risk officer and the leader of the team responsible 
for coordinating efforts with the private sector.
    Three others were forced to leave, according to interviews with 
former employees and internal documents obtained under the federal 
Freedom of Information Act. Among them was Lorelle Atkinson, acting 
vice president of public affairs, a 6-year veteran and nonpolitical 
appointee at MCC who previously had worked for 4 years at a global 
development nonprofit that focused on improving the plight of poor 
women.
    Atkinson told The Post she attended a June 2017 staff meeting at 
which employees were warned they might lose their jobs to make room for 
new political appointees. She said she was forced to resign in 
October--at a time when she was pregnant.
    ``I was proud of the work we did at MCC and was honored to have 
worked with the best and brightest the civil service has to offer,'' 
Atkinson said.
    Foreign aid veterans told The Post the appointments are subverting 
the agency's technical-minded culture. They said the injection of 
inexperienced political appointees represents the kind of establishment 
machinations Trump has decried as ``the swamp.''
    ``This is deeply troubling,'' said Scott Morris, who worked closely 
with MCC's board as a deputy assistant secretary at the Treasury 
Department in the Obama administration. ``This will inevitably 
undermine the ability of this technocratic agency to fulfill its 
mission.''
                             familiar ties
    Congress authorized MCC in 2003 as an independent agency, including 
funding for 30 employees who could be appointed outside of the normal 
civil service laws and regulations. Congress gave the agency's chief 
executive authority for hiring the majority of those employees. The 
appointment of about seven corporate officers is subject to approval by 
a governing board composed of the secretary of state, treasury 
secretary, the administrator of the United States Agency for 
International Development and others with ``relevant international 
experience.''
    The MCC has about 300 employees and an $800 million annual budget. 
It has supported programs in dozens of developing countries.
    After Trump's inauguration, agency leaders did not initially hear 
from the White House, according to MCC employees at the time. In the 
spring of 2017, a senior official from the Presidential Personnel 
Office (PPO) asked several members of the leadership team to send over 
their resumes for review, people familiar with the matter said. Before 
long, a PPO official began making claims on the 30 appointed positions 
authorized by Congress.
    The PPO is a White House organization responsible for selecting and 
placing 4,000 political appointees who carry out the president's 
policies and run federal agencies. It has been a source of controversy 
over its vetting of nominees and the pace of appointments. PPO director 
Sean Doocey and a senior official in the PPO office, Katja Bullock, 
have been involved in lining up the political jobs at MCC, according to 
documents and interviews with people with knowledge of the office.
    In a previous interview, a White House official acknowledged that 
Doocey and Bullock are former Bush administration colleagues and 
longtime friends, who with others traveled to Germany on vacation last 
year.
    Several months after the trip to Germany, Doocey appointed 
Bullock's grandson, Dillon Seamus Bullock, to MCC as a ``staff 
assistant,'' the Dec. 5 memo shows. Dillon Seamus Bullock, who was 
given a $50,000 salary, had no professional experience after graduating 
with an English degree from Belmont Abbey College in December 2016, 
according to his resume and the Doocey memo.
    As The Post has previously reported, Dillon Seamus Bullock is one 
of four of Katja Bullock's relatives who have received political 
appointments in the Trump administration.
    Doocey and Katja Bullock declined requests for interviews. During a 
brief phone call, Dillon Seamus Bullock also declined to comment.
    Doocey's office also arranged for the agency to hire Adrienne Spero 
as White House liaison. Though she was paid by MCC, she reported to 
Doocey, according to interviews with current and former employees. 
After the publication of this report, Spero denied that she reported to 
Doocey.
    Spero is a 2013 graduate of Ohio Northern University's Pettit 
College of Law who worked as a contractor as a law clerk at the Justice 
Department and other agencies in 2015 and 2016. She and her husband, 
Casin Spero, a political appointee at Veterans Affairs, are social 
friends of Doocey's, according to current and former Trump 
administration officials who spoke on the condition of anonymity for 
fear of retribution.
    Before the presidential election, Casin Spero and Doocey both 
worked at Barbaricum, a federal contractor.
    Adrienne Spero declined an interview request, and VA did not 
respond to a request for an interview with Casin Spero.
    Kirk Bell, a Trump campaign worker, told The Post that PPO 
officials placed him in the agency's communications office last year, 
even though he did not seek out the job. Bell resigned months ago amid 
questions relating to his security clearance. He declined to discuss 
the details.
    ``I was asked by the White House to go to MCC,'' Bell said, adding 
that he felt duty-bound to follow White House instructions. ``I was 
basically told, `This is what we have for you.' ''
    Another appointee is Karen Sessions, a former Verizon 
Communications executive and municipal official in Winter Park, Fla., 
who made an unsuccessful run for Congress as a Republican in 2010. In 
2012, she married Rep. Pete Sessions (R-Tex.), a Trump supporter. She 
is vice president of congressional and public affairs.
    Yet another is Eric M. Ueland, who was recently placed at MCC after 
his nomination to be undersecretary of state for management failed to 
receive Senate support. Ueland is a veteran Republican Senate staffer 
who has worked for former Senate majority leader Bill Frist (R-Tenn.) 
and as the staff director for the Senate Budget Committee under former 
Alabama U.S. senator and current Attorney General Jeff Sessions. In a 
personal biography online,--Ueland describes himself as a ``senior 
strategy officer'' at MCC.
    The Post requested copies of emails between agency officials and 
the White House under the Freedom of Information Act in March. In 
response, MCC identified 59 emails that could be responsive. But none 
of the emails--which were sent to the White House for review--have been 
released.
    ``We're simply just waiting for the White House to reply,'' said 
Tamiko Watkins, the agency's chief Freedom of Information Act officer. 
``Our hands are a little bit tied.''
                        politicalization worries
    The most controversial of the new appointees is Robert Blau, a 
retired Foreign Service officer who served as a speechwriter on Trump's 
campaign. He was named MCC's vice president of compact operations in 
the spring of 2017.
    Soon after arriving, he filled his office with Trump campaign 
memorabilia, which he later removed after colleagues suggested it was 
not appropriate for a federal office, according to officials at the 
agency at the time who spoke on the condition of anonymity. During a 
staff town hall meeting last year, Blau, who was then director of 
operations, described himself as ``a partisan conservative Republican'' 
and complained that certain media were ``out to get Trump every day,'' 
according to a routine recording of the meeting made by the agency.
    He assured them his political views would not influence his 
management decisions, the recording shows. But he also urged agency 
employees to watch Fox News and read Breitbart News.
    ``If you are only using CNN and The Washington Post, you're getting 
a very biased view of the news,'' he said, according to a transcript of 
the audio first made public by Foreign Policy magazine earlier this 
year.
    Blau also expressed skepticism about a speaker at the agency who 
had recently promoted gay and lesbian pride.
    ``His talk was sort of `celebrate diversity,' '' Blau said, noting 
that his wife is an immigrant from Africa and that his sons are mixed 
race. ``I'm not someone who celebrates diversity, or engineers it. To 
me, diversity just happens,'' he said.
    Menendez condemned the remarks in a Feb. 23 letter to then-acting 
chief executive Jon Nash: ``I write to seek a full accounting of this 
behavior and MCC's response to it, as well as a commitment from MCC 
leadership that individuals who engage in such behavior will be held 
accountable.''
    In a letter back, Nash wrote that the remarks ``do not reflect 
MCC's values'' and said that the matter had been referred to the 
agency's general counsel.
    Through a spokeswoman, Blau declined requests for an interview.
    On May 25, Blau was promoted to interim leader of MCC, effective 3 
days later. The White House officials made the move after repeated 
delays in Senate consideration of the nominee to be MCC's chief 
executive, which has been pending since early January.
    The nominee, Sean Cairncross, is a Washington insider who served as 
chief operating officer of the Republican National Committee in the 
2016 election cycle. In the Trump administration, he served as deputy 
assistant to Trump and senior adviser to the chief of staff.
    But he has no foreign development experience, according to his 
testimony during his nomination hearing in February.
    During that hearing, Sen. Jeff Merkley (D-Ore.) asked Cairncross 
about White House politicization of MCC. Cairncross said he knew 
nothing about it.
    ``If confirmed, I would strive to keep the MCC a performance-based 
professional development organization,'' Cairncross testified. ``I am 
not looking to politicize the MCC.''
    Cairncross's nomination is still pending.



    Andrew Ba Tran contributed to this report.

      Material Submitted for the Record by Senator Robert Menendez

           appointed leader resigns from foreign aid agency 
                 used to give jobs to trump supporters

                         By Robert O'Harrow Jr.

    Washington Post, August 15, 2018. A political appointee overseeing 
a small foreign assistance agency that has been used by the White House 
as a source of jobs for Trump administration supporters is resigning, 
according to an email he sent to agency employees on Tuesday.
    Robert Blau, a retired Foreign Service officer and speechwriter for 
Trump's presidential campaign, was named vice president of operations 
at the Millennium Challenge Corporation in May 2017. He assumed the 
duties of the chief executive in May of this year, after the Senate 
failed to move on Trump's nominee to lead the agency.
    Blau's email said he told the White House early last week that he 
would step down next Tuesday. The email was obtained by The Washington 
Post.
    In a brief telephone call, Blau declined to comment. The White 
House also declined to comment, and the agency did not respond to 
emails.
    Two people speaking on condition of anonymity because they were not 
authorized to speak on his behalf said Blau has said he wanted to 
returned to Florida, where he and his wife lived before he joined the 
campaign, and did not want to renew a lease in the Washington region.
    Blau's announcement followed a July 28 Washington Post story that 
detailed how the White House had assumed control over hiring at the 
headquarters of Millennium Challenge Corporation, or MCC, a small 
independent agency that promotes economic growth in poor countries.
    In prior administrations, only the chief executive and several 
other top officials at the agency had been selected by the White House. 
The chief executive then used authority granted by Congress to appoint 
about two dozen other staffers, primarily for their development 
experience.
    The Trump White House has filled 14 jobs with political appointees, 
more than twice the number at MCC on the day the president took office, 
The Post reported. Some veteran employees were placed in other jobs or 
forced to leave the agency to make room for Trump appointees. 
Administration officials have asserted that they control 30 appointed 
jobs at MCC, The Post reported.
    Among the new appointees are a former municipal worker in Florida 
and the wife of a congressman. Another is a 2016 college graduate with 
a degree in English literature whose grandmother is a senior personnel 
official in the White House.
    Blau was among the most controversial of the appointees. Soon after 
arriving at MCC, he filled his office with Trump campaign memorabilia. 
During a staff meeting last year, he urged employees to watch Fox News 
and read Breitbart News and characterized The Washington Post and CNN 
as ``very biased,'' according to a recording made for employees who 
could not attend the meeting.
    Blau also expressed skepticism about a recent speaker who had 
promoted gay and lesbian pride.
    ``I'm not someone who celebrates diversity, or engineers it. To me, 
diversity just happens,'' he said, according to a recording made public 
by Foreign Policy magazine earlier this year.
    In his email Tuesday, Blau said he has worked at MCC ``alongside 
highly-dedicated, incredibly talented individuals employed overseas and 
here in headquarters.''
    ``It has been an honor and a privilege to serve in the Trump 
Administration,'' he wrote. ``I will be returning to Florida, where I 
will continue to support the Trump Administration, and also cheer MCC 
on as it takes on ever-greater development and foreign policy 
challenges.''
    Robert O'Harrow Jr. is an investigative and accountability reporter 
at the The Washington Post.

      Material Submitted for the Record by Senator Robert Menendez

           acting leader removed from agency the white house 
              has used to provide jobs to trump supporters

                         By Robert O'Harrow Jr.

    Washington Post, October 18, 2018. The White House has removed the 
acting chief of a small foreign aid office less than 2 months after he 
was put in place to quell controversy over the Trump administration's 
use of the agency as a source of jobs for political supporters, 
according to interviews and an internal email obtained by The 
Washington Post.
    Brock Bierman has served as part-time leader of the Millennium 
Challenge Corporation since Aug. 21, while also juggling 
responsibilities as an assistant administrator at the U.S. Agency for 
International Development.
    ``This afternoon the White House directed that Brock Bierman no 
longer serve as Acting CEO of MCC,'' said a brief email to agency staff 
Wednesday evening. The email offered no explanation for his removal.
    Bierman's departure is the latest upheaval at an agency that has 
not had a permanent leader since the start of the Trump administration.
    Bierman was the third person in 5 months to lead the MCC, which 
promotes economic growth in poor countries. In January, Trump nominated 
Sean Cairncross to be MCC's chief executive. The nomination has stalled 
in the Senate, in part because Cairncross, the former chief operating 
officer of the Republican National Committee, has no foreign assistance 
experience.
    Bierman succeeded another acting leader, Robert Blau, who resigned 
amid controversy over the White House's placement of more than a dozen 
Trump supporters into jobs previously reserved for development 
specialists.
    Shortly after arriving at MCC, Bierman imposed a hiring freeze on 
political appointees and told senior staff and congressional aides that 
he would work to restore MCC's reputation for independence from 
political influence, according to an agency official and a 
congressional aide.
    Bierman's duties will be assumed by Jonathan Nash, the agency's 
chief operating officer and a longtime career employee at the agency. 
Nash also previously served as a temporary MCC chief under Trump.
    Bierman did not respond to requests for comment.
    He tweeted: ``It was an honor and privilege to serve as acting CEO 
for the Millennium Challenge Corporation these past 2 months. I am 
grateful to the President for the opportunity to have lead an 
incredible group of dedicated professionals. Excited to get back to 
work full time.''
    The White House did not respond to questions about his departure.
    Three people familiar with MCC operations, speaking on the 
condition of anonymity because they are not authorized to speak 
publicly on behalf of the agency, said the White House decision came 
after Bierman clashed with senior staff, including Karen Sessions, a 
political appointee serving as MCC's vice president for congressional 
and public affairs. She is the wife of Rep. Pete Sessions (R-Texas).
    Karen Sessions did not respond to requests for comment.
    After being told about Bierman's resignation, Sen. Robert Menendez 
(N.J.), the senior Democrat on the Foreign Relations Committee, said he 
intends to examine what happened.
    ``Mr. Bierman appeared to approach the position of Acting CEO at 
MCC with a clear vision of how to run an independent, professional 
agency that the Trump Administration had politicized and turned into a 
revolving door for campaign aides,'' Menendez said in a statement. ``I 
have questions about his abrupt dismissal, and I intend to find out 
what happened.''
    Until Trump, MCC was primarily known for its technocratic staff and 
innovative efforts to provide economic assistance to poor countries.
    In a July 28 story, The Post showed how the Trump administration 
was using the agency to reward supporters and allies with jobs. In 
early 2017, the White House Presidential Personnel Office claimed 
control over 30 MCC jobs.
    Over the next year, the PPO filled 14 jobs with Trump supporters 
and allies. Among them was Blau, a former campaign speechwriter who 
drew criticism for urging MCC employees to watch Fox News and read 
Breitbart News.
    Another appointee was the grandson of a senior PPO official, a 
young man who graduated from college in 2016 with an English degree.

    Senator Menendez. MCC experienced several inauspicious 
leadership changes while the committee was vetting your 
nomination. While a good number of inappropriate leaders have 
departed MCC, including Robert Blau, the acting CEO who 
infamously gave a rambling and offensive all-hands speech that 
sent a chilling effect through MCC's ranks, so that their 
departure has actually helped restore credibility to MCC, the 
question remains: why were these people given leadership roles 
and what lasting impact will their presence have on MCC's 
effectiveness?
    Mr. Cairncross, you received a number of questions for the 
record on these issues during your confirmation. In your 
answers, you committed to restoring MCC's professional culture. 
I appreciate that you took these concerns seriously, and I look 
forward to your testimony on how you will strategically work to 
right the ship.
    Through it all and with steady support from Congress, MCC 
continues to explore and execute compacts in developing 
countries. For 25 years, MCC has followed an innovative 
approach to international development by providing limited but 
ambitious investments in economically transformative projects 
in poor countries that demonstrate a willingness and capacity 
to meaningfully commit to specific standards of improved 
governance, transparency, and fair competition.
    MCC's data-driven approach assesses countries' constraints 
to economic growth and their needs to ensure a maximization on 
investments returns each country receives. Americans benefit 
from these investments as strategic partner countries 
experience improved regional security through improved economic 
security, growing trade opportunities, and the ability to 
resist malign external influence. MCC is an important tool in 
the U.S. foreign policy toolbox that requires congressional 
support, including robust oversight to ensure the independent 
agency sustains its success.
    In addition to discussing your efforts to restore a sound 
and productive work environment at MCC, I also have a number of 
questions about some of MCC's active and pending compacts. My 
concerns about specific compacts are rooted in wanting to 
ensure MCC is dutifully executing its mission. The committee 
and the American people need assurances from you that MCC is 
adapting strategies to manage and resolve these concerns.
    For example, as the chairman mentioned, in Ghana, MCC 
recently--and for good reasons--terminated $190 million of 
MCC's $498 million compact with Ghana. I believe that was the 
right decision based on the findings of an independent audit of 
fraud allegations lodged by the Ghanaian Government. However, I 
have questions around the budget implications of these funds 
returning to MCC, as well as the lessons or precautions MCC may 
be taking with the rest of the Ghana compact.
    Regarding Mongolia's water compact, Mongolia's dubious plan 
to service the outstanding $75 million debt its water authority 
has accrued by simply moving the debt to another division of 
the government hardly seems like a fiscally responsible plan 
that MCC should accept. I also have concerns about the 
Mongolia-Millennium Challenge Account's lack of progress on 
developing a credible and sustainable revenue mechanism to pay 
for the long-term maintenance and operation of the project MCC 
is helping to build.
    In Sri Lanka, MCC has a $480 million compact pending the 
approval of the Sri Lankan Government. Sri Lanka, however, has 
just elected a suspected war criminal, Gotabaya Rajapaksa, as 
president. How will this affect the compact?
    I also have questions about Kosovo, El Salvador, and 
Georgia.
    I believe MCC can continue to be a positive tool of 
American economic leadership, and I appreciate the chairman's 
interest in conducting oversight of this important development 
agency. And we look forward to your testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    Now we will hear from the Honorable Sean Cairncross. He is 
the Chief Executive Officer of the Millennium Challenge 
Corporation. Prior to joining MCC, Mr. Cairncross held a number 
of positions in the public and private sectors, including 
Deputy Assistant to the President and Senior Advisor to the 
White House Chief of Staff. He holds a J.D. from NYU School of 
Law and M.Phil from Cambridge University and B.A. from American 
University.
    Mr. Cairncross, you have heard both the ranking member and 
me talk about some of the issues of the past. We really want to 
look forward. I think the ranking member and I share, as do 
other members of this committee, a real concern for how 
important this agency is. We obviously are challenged 
internationally in many different respects. This particular 
agency is one that projects American values, projects American 
ability to help people better themselves, and as the ranking 
member said, there are challenges here. We really are trusting 
you to stand this agency up to do good and move forward well.
    So with that, the floor is yours.

  STATEMENT OF HON. SEAN CAIRNCROSS, CHIEF EXECUTIVE OFFICER, 
        MILLENNIUM CHALLENGE CORPORATION, WASHINGTON, DC

    Mr. Cairncross. Thank you, Chairman Risch, Ranking Member 
Menendez, and members of the committee.
    I would also like to recognize and thank Senator Isakson 
for your long-term support for the agency. Everyone is very 
appreciative. Thank you.
    I am delighted to be here today and talk about my first 
100-plus days as MCC's CEO and also my priorities for MCC in 
the months ahead. It is a privilege to lead an agency with such 
a diverse, talented, and dedicated staff. I am grateful to 
President Trump for entrusting me to do so, and I am thankful 
and grateful for this committee's support.
    I also want to thank your staff members. The bipartisan 
support that MCC enjoys is a real testament to this body, and I 
would like to thank them for their consistent engagement with 
MCC's work.
    Over the course of my first 5 and a half months at MCC, it 
has become clear to me that what really is the agency's 
strength are its core principles: transparency, data, and, 
frankly most importantly, accountability both for ourselves and 
for our partner countries.
    MCC's work to reduce poverty through economic growth and 
consolidate democratic and free market reforms in the world's 
best governed, poorest nations is critical to U.S. foreign 
development. Our partner countries are actively working to set 
their nations on a path towards self-reliance.
    There is no better way to learn this than to go see it. 
Each trip I take into the field better equips me to share the 
agency's work and to help guide the agency's mission. And since 
being confirmed, I visited six partner countries--Malawi, Cote 
d'Ivoire, El Salvador, Georgia, Niger, and Morocco--and visited 
nearly 20 project sites. I have spent time with hundreds of 
beneficiaries, and that is unquestionably the best part of each 
trip.
    In Malawi, I met with President Mutharika to push for 
continued performance on MCC's scorecard and sustainability of 
their power compact. I also met with Grace Ghambi, an 
electrical engineering student who is earning her degree 
through an MCC-sponsored scholarship. After finishing school, 
Grace wants to return to support the implementation of MCC's 
compact by working at ESCOM, an electric company that is 
helping with the private sector enterprise in Malawi.
    Following that visit, I headed to Abidjan to attend the 
AGOA forum. I joined President Ouattara to mark the start of 
our $525 million compact with investments in education and 
transportation.
    I also signed a memorandum of understanding between the 
Government of Cote d'Ivoire and The Bechtel Corporation to 
develop a national master infrastructure plan. I think this is 
a significant step in developing a sustainable infrastructure 
investment plan for Cote d'Ivoire in the years to come.
    In El Salvador, I met with President Bukele and had a great 
discussion on the importance of the private sector in creating 
a sustainable economy. We launched the bid for the country's 
first large-scale, public-private partnership, and I also 
attended the opening of the first of 45 MCC-renovated schools.
    Just last month, I traveled to Niger and Morocco. In Niger, 
I met with President Issoufou and launched an investment in the 
agricultural sector in Konni.
    I then joined Advisor to the President, Ivanka Trump, in 
Morocco where we saw firsthand our joint efforts to increase 
women's economic empowerment through MCC and the Women's Global 
Development and Prosperity Initiative. While in Rabat, we 
signed an implementation letter with the government to ensure 
that regulations for a new law advancing secure land rights for 
women is adopted by December 31 of this year.
    Advisor Trump and I also met with women in the Gharb region 
who now have more secure ownership in inheritance rights for 
the collective lands on which they farm.
    W-GDP is enabling the U.S. Government to target investments 
in women across the developing world in a coordinated way. MCC 
is grateful to Ivanka and to the administration for their 
support of our work in this regard.
    Each of these missions is invaluable, and I look forward to 
continuing to visit the field.
    MCC's work reflects a model built on lessons of development 
experience, but I also seek to find new ways to build on that 
model and achieve greater impact. So we will focus on four 
areas: one, empowering MCC's staff; two, encouraging smart 
risk; three, crowding in and enabling private development and 
dollars; four, holding ourselves and our partner countries 
accountable.
    First, it is a priority for me to empower the incredible 
people who work at MCC. Through listening sessions, roundtable 
discussions, and daily conversations--I walk around the 
building quite a bit--I learn daily and directly from staff 
about what the agency does well and what we can improve, and I 
continue to learn more about this every single day.
    Second, we will further establish a culture of creativity 
that encourages smart risk, including operationalizing MCC's 
concurrent compact authority. Markets do not stop at borders 
and nor should MCC's investments. We must increase our risk 
tolerance if we want greater successes across the board. This 
is at the root and the core of the design of MCC.
    Third, crowding in and enabling private investment 
throughout the lifecycle of our programs is vital. We know that 
government-to-government dollars are not enough. We need 
private investment and job creation to develop healthy market 
economies. This is the primary driver of truly sustainable 
economic growth.
    And finally, accountability. Without it, we cannot do our 
best work with our partner countries or for the American 
taxpayer. MCC will not throw good money after bad. We will 
adhere to our principles and follow our model.
    Two recent examples emphasize this. MCC's board of 
directors unanimously agreed to terminate a portion of the 
Ghana power compact when a key condition was not met. In Sri 
Lanka, MCC is continuing to monitor as the new government takes 
shape. As with all MCC partners, we expect Sri Lanka to remain 
committed to MCC's eligibility criteria, including with respect 
to the rule of law, political rights, and civil liberties.
    All this is to say by investing in staff, innovating and 
taking smart risks, crowding in private dollars, and holding 
ourselves and our partners accountable, I am confident that MCC 
will continue to deliver on our mission.
    Thank you for today, and I look forward to your questions.
    [The prepared statement of Mr. Cairncross follows:]

               Prepared Statement of Hon. Sean Cairncross

    Thank you, Chairman Risch, Ranking Member Menendez, and members of 
the Committee. I am delighted to be here today, and I look forward to 
discussing my first 100-plus days as MCC's Chief Executive Officer with 
you, as well as my priorities for MCC in the months ahead.
    As I've said before, it is a true honor and privilege to lead an 
agency with such a talented, diverse, and dedicated staff of experts in 
their fields of practice. I am grateful to President Trump for trusting 
in me to do so, and sincerely thankful for the support and confidence 
of this committee, and the United States Senate.
    I also want to thank each of your staffs for our important and 
ongoing conversations. The bipartisan support that MCC enjoys is a 
testament to this body and to the work and collaboration between MCC 
and your teams. The value of these relationships--and the key guidance 
that you each provide to me and the agency--cannot be overstated. Thank 
you for making yourselves available and for your consistent engagement 
in MCC's work around the world. I am truly grateful.
    Over the course of my first 5 1/2 months at MCC, it has become 
abundantly clear to me that MCC's strength continues to lie in the core 
principles the agency was founded on 15 years ago: transparency, data-
driven decision making, and certainly--and arguably most importantly--
accountability.
    I believe that MCC's work to reduce poverty through economic growth 
and consolidate democratic and free-market reforms in the world's best-
governed, poorest countries is crucial to the success of U.S. foreign 
development. Our partner countries are actively working to fight 
corruption, and to set their nations and their economies on better and 
stronger paths toward self-reliance. They are making the hard choices, 
and America is standing with them.
    There is no better way to learn this than to go see it. I promised 
this committee I would, and I have.
    The opportunity to see MCC's work firsthand has been 
transformational. Each trip I take to the field better equips me to 
share the agency's work, and to support and guide MCC's mission.
    Since being confirmed at the end of June, I have traveled to six 
MCC partner countries--Malawi, Cote d'Ivoire, El Salvador, Georgia, 
Niger, and Morocco, have met with 11 Heads of State, have visited 
nearly 20 project sites, and have spent time with hundreds of 
beneficiaries, which is unquestionably the best part of each trip.
    In Malawi, I met with President Mutharika to push for continued 
performance on MCC's scorecard and sustainability of their power 
compact. I also met with Grace Ghambi a fourth-year electrical 
engineering student at the University of Malawi who is earning her 
degree through an MCC-sponsored scholarship. While visiting Nkula power 
plant outside of Blantyre, Grace explained to me that without this MCC 
investment, her education would not have been possible; and now, after 
she finishes her schooling, Grace wants to come back and assist with 
implementing the MCC compact by working at ESCOM--an electric company 
in Malawi helping to privatize the energy sector. She has also started 
a girls' mentoring group, sharing information and encouraging young 
women to reach their dreams. Inside of 2 years, she has reached 
thousands of young girls in Malawi. If that's not a good demonstration 
of America's power to inspire, I don't know what is.
    Following this visit, I headed to Abidjan, Cote d' Ivoire, where I 
attended the AGOA forum and joined President Ouattara in marking the 
entry-into-force of our $525 million compact supporting investments in 
the education and transportation sectors. I toured the Port of Abidjan 
and traveled the primary traffic-congested areas that we are aiming to 
relieve over the next 5 years--the Government of Cote d'Ivoire is a 
committed and strong partner. I also joined the signing of a Memorandum 
of Understanding between MCC, Cote d'Ivoire, and The Bechtel Company to 
develop a national infrastructure plan--a significant step in directing 
the sustainability of the Ivorian's infrastructure investments for many 
years to come.
    In September, I traveled to the Republic of Georgia to support 
MCC's $140 million investment in the Georgian education sector, 
particularly in the fields of science, technology, engineering, and 
math. I joined San Diego State University in welcoming their 5th cohort 
of students to the MCC-supported SDSU-Georgia STEM program, and also 
opened one of the 91 newly MCC-renovated schools.
    In El Salvador, I met with newly elected President Bukele and had a 
good discussion on the importance of the private sector in creating a 
sustainable economy. We launched the bid for the country's first large-
scale public-private partnership. I also attended the opening of the 
first of 45 MCC-renovated schools--and like in Georgia, addressed a 
community of enthusiastic and inspired students, families, and 
teachers.
    And, just last month, I traveled to Niger and Morocco. In Niger, I 
met with President Issoufou and launched an investment in agricultural 
irrigation in Konni.
    I then traveled to Rabat, Morocco, to join Advisor to the 
President, Ivanka Trump, where we saw firsthand our joint efforts to 
increase economic opportunity and prosperity for women through MCC and 
the Women's Global Development and Prosperity Initiative, or W-GDP.
    I am a firm believer that a country's economy cannot reach its full 
potential if half the population is left out. Women must have the 
freedom to make their own economic decisions. This matters. And, for 
MCC, this is one of the best dollar-for-dollar investments we can make 
to reduce poverty through economic growth. We remain committed to 
prioritizing women's economic empowerment within our programs and 
upholding the pillars of W-GDP within our country partnerships.
    During our time in Morocco, MCC signed an implementation letter 
with the Government to ensure that regulations for a new law advancing 
secure land rights for women are adopted by December 31. Advisor Trump 
and I also met with women in the Gharb region who now have more secure 
ownership and inheritance rights to the collective lands that they 
farm.
    MCC has been working, since our agency's founding, to address 
gender issues and directly invest in women. In fact, last year we 
significantly expanded our Gender in the Economy indicator to cover 40 
issue areas--up from just 10.
    W-GDP is enabling the U.S. Government to target investments in 
women across the developing world in a coordinated and focused way--
this is key to eliminating barriers to women's economic growth across 
the globe. There is no question that women must be able to fully 
participate in their economies. We are grateful to Ivanka and the 
administration for their continued support of MCC's work in 
spearheading efforts to economically empower women around the world.
    I also had the opportunity to promote MCC's work while in New York 
for the United Nations General Assembly, and I traveled to London to 
meet with potential private investors and partners, participating in 
several events that gave me the chance to speak about MCC's role in 
U.S. development and blended finance. MCC is a great story for America 
and our important work abroad, and I intend to tell it to as many 
audiences as I can.
    These missions have been invaluable, and I look forward to 
continuing to visit the field to experience--and help leverage--MCC's 
work on the ground.
    Our work reflects a model built on lessons of development 
experience, and as CEO, I am committed to maintaining the agency's role 
as a leader in U.S. foreign assistance. Indeed, for the fourth year in 
a row, Results for America ranked MCC number one in using evidence, 
results, and learning to drive positive outcomes--but I will also seek 
to build on our model to find new, innovative ways to achieve a greater 
impact across our portfolio.
    We will do this by focusing in four key areas:

    One, empowering the staff at MCC;

    two, establishing a culture of creativity that encourages smart 
risk;

    three, crowding-in and enabling private investment; and

    four, holding ourselves and our partners accountable for results.

    First, it is a priority for me, as CEO, to connect with, and 
empower, the incredible people at MCC. I have held multiple all-staff 
listening sessions, surveys, roundtable discussions, meetings, and 
daily conversations to ensure I hear directly from staff about what the 
agency is doing well, and where we can improve. Their input has been 
invaluable and has helped to shape our strategic vision for the agency 
moving forward. I continue to learn more about the important work each 
of our teams are doing every day; communication with staff is a 
priority and I will keep these channels open. Empowering MCC's staff 
for optimal performance is, and will continue to be, a primary focus 
area for me.
    Second, we will work to build upon and further establish a culture 
of creativity that encourages taking smart, entrepreneurial risk--
including operationalizing MCC's new concurrent compact authority to 
work on regional integration and trade. We all know that markets do not 
stop at borders, so neither should MCC's investments. If we can help 
connect our partner countries to regional markets, we can create more 
economic opportunity, and reduce poverty exponentially. Working cross-
border is risky--however, the potential payoff is huge, and we will 
tackle these investments using the same data and analysis that supports 
our informed decision making across the globe. We must increase our 
risk appetite by taking calculated risks if we want greater successes 
across the board. This is at the root of MCC's design as a creative and 
unique aid agency.
    Third, crowding-in and further enabling private investment across 
our portfolio, and throughout the lifecycle of our compacts, is vital. 
We each know that government-to-government development dollars are not 
enough. We need private investment and job creation to develop healthy 
market economies--this is the primary driver of sustainable growth. 
Areas of opportunity for MCC include creating enabling environments, 
assertively employing blended finance tools, and building partnerships. 
We certainly look forward to working closely with the new DFC in this 
area as well.
    And finally, accountability. Without it, we cannot do our best work 
with our partner countries or for the American taxpayer. MCC will not 
throw good money after bad. Others say this, but MCC has a 15-year 
track record of following through. We will do what we say we are going 
to do. Making difficult decisions based on available evidence is what 
MCC is all about, and our model works because we stick to our 
principles. This is key to our success as an agency.
    Two recent examples emphasize this. MCC's Board of Directors 
unanimously agreed to terminate a portion of the Ghana Power Compact 
when a key condition was not met. In Sri Lanka, MCC is continuing to 
monitor as the new government takes shape. As with all MCC partners, we 
expect Sri Lanka to remain committed to MCC's eligibility criteria, 
including respect for the rule of law, political rights, and civil 
liberties.
    By investing in the staff at MCC, continuing to innovate and take 
smart risks across our portfolio, finding new ways to crowd-in private 
dollars, and continuously holding ourselves and our partner countries 
accountable as responsible stewards of American taxpayer dollars, MCC 
will build upon its remarkable history of bi-partisan support, and be 
stronger and more resilient as an agency. I am confident that MCC will 
continue to deliver on our mission of reducing poverty through economic 
growth and representing American values around the world.
    Thank you for your time and I look forward to your questions.

    The Chairman. Thank you much. We appreciate your 
leadership.
    And with that, Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you for your statement.
    Congress created MCC to operate differently than most 
federal agencies. One of the qualities Congress gave the MCC 
was a unique set of hiring mechanisms to allow the agency to 
act nimbly to bring in issue or sector experts according to the 
needs of a compact. For practical purposes, the 
administratively-determined, or AD, personnel slots at MCC are 
political hires.
    Prior to your confirmation, it became evident that the 
White House Presidential Personnel Office was using MCC's 
generous allotment of AD slots to provide political patronage 
jobs to Trump loyalists with questionable qualifications. Brock 
Bierman, during his brief stint as acting CEO, took this issue 
seriously, though he was fired before he could work to resolve 
these issues.
    So in concern about those issues, is PPO still calling the 
shots at how MCC AD slots are allocated and to whom?
    Mr. Cairncross. Senator, with respect to how things were 
handled before I got there, I was not a part of that.
    What I can tell you is the only way I know how to run an 
effective agency or entity is that form has to follow function. 
The needs of the agency and of the mission are what drive 
hiring decisions at MCC. Those decisions are based on the 
qualifications of the individuals and the needs of the roles 
that they will fill. And MCC's hiring decisions, since I have 
been there, have been MCC's decisions.
    Senator Menendez. Okay. So PPO is not calling the shots at 
this time.
    Mr. Cairncross. MCC's hiring decisions are MCC's, sir.
    Senator Menendez. Okay.
    So at this point--let me just make sure--the PPO has no 
role in MCC hiring decisions?
    Mr. Cairncross. PPO--when we go through our process of 
finding an administratively-determined position and I believe 
and the agency believes that they are qualified, I share that 
information with the White House to make sure that they agree 
that they are qualified. We have had no disagreements to date. 
I expect none. And I will continue to follow my process.
    Senator Menendez. Now, do you share Mr. Bierman's concerns 
with how PPO was using MCC's AD hiring authority?
    Mr. Cairncross. Senator, all I can really say is with 
respect to how I am going to operate and how I have been 
operating since I have been there. Like I said, the needs of 
the agency and the mission are what drive our decisions.
    Senator Menendez. So in that regard, are MCC's unique 
hiring authorities being used to hire issue specialists and 
experts needed to work on specific compacts and projects?
    Mr. Cairncross. Yes. The the requirements of the job and 
the roles are what govern the decisions, and they are matched 
with qualified individuals.
    Senator Menendez. Mr. Bierman, before he left, briefed my 
staff on the memo and draft plan for investigating 
misappropriation of personnel slots. Are you aware of this 
plan?
    Mr. Cairncross. During my confirmation process, I discussed 
it with your staff, yes.
    Senator Menendez. But other than discussing with them, have 
you read the plan?
    Mr. Cairncross. No. I do not know the details of the plan.
    Senator Menendez. Okay.
    Let me ask you this. I will not rehash Mr. Blau's 
transgressions other than to say he made statements to MCC 
personnel that were culturally offensive, highly inappropriate 
in any work environment, let alone a federal agency. His 
message had a chilling effect on personnel, some of whom were 
so alarmed that they felt compelled to inform this committee of 
his conduct. He is gone, thankfully. So that is a good thing.
    But his words still raise concerns about MCC's commitment 
to workforce diversity. Have any of MCC's policies towards 
maintaining workforce diversity changed under your 
administration?
    Mr. Cairncross. Senator, as I said in my confirmation 
hearing, I take diversity very seriously. I believe it is 
something that ought to be celebrated. It is something that 
improves the decision-making of any organization, particularly 
one such as MCC involved in international development work. I 
have made my position on this abundantly clear to staff, and I 
am very hopeful that that position from the top has resonated 
throughout.
    Senator Menendez. You said something very similar in 
response to my question for the record regarding promotion of 
diversity among MCC's workforce by saying, ``If confirmed, I 
will set a tone from the top of the agency that diversity is 
critical to effective work and highly valued. I will 
participate in diversity and inclusion refresher training 
sessions and require that all senior leadership participate 
along with me. I will seek to hire from as broad a pool of 
potential applicants as possible, including internal and 
external MCC candidates, in order to increase both female and 
minority staff members at MCC.''
    What steps have you taken to realize that commitment to 
workforce diversity that you made to the committee?
    Mr. Cairncross. I have done exactly that, Senator. One of 
the first things that I did as CEO was introduce a diversity 
workshop at the agency that was being featured that week. I 
have continued to participate on all levels with staff, whether 
it is with our women's group, and shown direct involvement and 
engagement with that. We have drawn from a broad pool of 
candidates for hiring decisions since my time there. We have 
promoted a number of, in particular, women among the senior 
team, and I look forward to continuing that commitment and also 
working closely with your staff. I know they have been very 
engaged on this issue, and we have had, I think, very good 
dialogue on it and I expect it to continue.
    Senator Menendez. I appreciate that. I hope that 
diversity--and I am all for greater diversity certainly on 
gender, but I hope that diversity is also included across other 
lines as well so that we reflect to the world what America is 
all about, and the work that MCC does should be a reflection of 
that.
    Mr. Cairncross. If I was not clear, sir, I agree with you, 
and I am committed to that as well.
    Senator Menendez. Finally, Mr. Blau left MCC before your 
confirmation. You, nevertheless, committed in responses to 
questions for the record that you would review any staff 
complaints made against him. Did you complete this review, and 
if so, what were your findings?
    Mr. Cairncross. I addressed those issues with staff in an 
all-hands in the second day of my time there, making clear my 
position, among other things, on the importance of diversity 
for the agency. I believe that that issue is thankfully in the 
rear view mirror. And I take staff morale very, very seriously, 
and I make an effort every day to reinforce that.
    Senator Menendez. I appreciate hearing you say those 
things, and I look forward to seeing them.
    I have a series of compact questions that I will get to in 
a second round.
    Mr. Chairman, with your indulgence, I do not know how long 
Senator Isakson is going to stay for the hearing, but I am 
thrilled that in the final days of his time in the Senate, he 
is still here with us at the committee on an issue that he 
cares so much about. And I deeply respect the work that he has 
done in the Senate but certainly on this committee. He has been 
an enormous bridge builder, and we could use more bridge 
builders in this institution. So thank you, Johnny, for your 
incredible service.
    Senator Isakson. Mr. Chairman, thank you for saying that 
and it is an honor to be back. One of the reasons I am back is 
you. This guy is the best Cuban-Irish tenor you have ever heard 
in your life. I was in the back of an airplane with him in 
Afghanistan with my wife sitting to my side, and Harry Reid and 
Bob, and he started singing from this little manual. And it was 
really good. I am terrible at that. So I really appreciated it. 
And my wife just fell in love with him. But, Bob, we had a 
great time. Went to Afghanistan, had a lot of the good times.
    And with Ben Cardin--I have just done so much with you and 
Myrna. When I saw both of them were going to be here, I said I 
want to be with that group. Sorry to leave you out, Mr. 
Chairman.
    I am here to tell you that I love this committee. I got on 
this committee in an interesting way. They called me up and 
said will you serve on the Foreign Relations Committee, and I 
said, no, I do not know if I am interested in that. They said, 
well, we are missing person. We got to have one more. I said 
okay. I was way down the list back then. So I said I will do it 
and had no idea I wanted to do it.
    And then they asked me to chair the Africa Subcommittee 
because they did not have anybody who wanted to do that. So I 
said, well, I better at least take the first job. So I did 
that. And I said I better go to Africa and figure out what I am 
doing. This is one of the places I went, and I fell in love 
with the continent, fell in love with the people.
    When we were talking about Swaziland, I said I remember 
something about that. And I took away the Swaziland's money. I 
did not take it away, but I blocked them from getting money 
they were going to get from the United States to try and bring 
about compliance in human rights and generally accepted 
principles of labor law. Labor law in Africa is a whole lot 
different than it is in the United States. I mean, you cannot 
mistreat anybody in the United States. In Africa, it is all you 
can do to catch them.
    So I just want to say that what you are talking about is 
important.
    The other thing that you said that is very important in 
terms of the contractors and who you are hiring and making sure 
you are getting the right type of laws. If we all stay on top 
of them, we will never get it as much as we would like to have 
it. But with Millennium Challenge, you have the opportunity to 
use a benefit as a lever of compliance. And I have seen 
Millennium Challenge work in that way in Africa more than any 
other government's program in the world.
    I am the one that got telling you. I said, listen, guys, 
the money is stopping. If you cannot find a way to have open 
zoning meetings, whatever they were, and no child labor, and 
just very basics, we are not going to invest the American 
taxpayers' money no matter how you say you are trying to do it. 
And being able to do that and having a director at the time who 
was willing to put it behind that and others and the President 
is what we did.
    So I think focusing on the hiring issue, as something that 
has been raised, is important because if we lose Millennium 
Challenge, it is bad for them. It is worse for us because we 
then get a lot more corruption because people do corrupt things 
to hire folks over there.
    So I just want to thank you for mentioning me, that I am 
leaving. I am not leaving because I do not like foreign 
relations. I love foreign relations. I love you, Mr. Chairman, 
and my dear friend on the Ethics Committee who served so much 
time with me from Idaho. And I appreciate you all very much and 
I am enjoying it. I am going to stay here a little while 
longer. So thank you for having me.
    The Chairman. Johnny, we are going to miss you.
    Senator Isakson. I will miss you all. Let us do not make 
this sad.
    The Chairman. All right.
    So how about Mr. Cairncross? You want to chew him a little?
    Senator Isakson. I got here early to do that.
    [Laughter.]
    Senator Isakson. It does not look like I did a very good 
job of preparing, but I will try as best I can.
    I just want to go back to what I was saying. Using the 
lever of the ability to help them do something they cannot do 
themselves is absolutely the best thing we did. One of the 
things government always does worse is kill something for being 
bad. It makes it worse. And by that, I mean if you take a 
developing country or a developing small area, rural place and 
give them an incentive to do something, they will do it, but 
there will also be somebody in town saying that is some money 
we can get. Let us get some of that money. Let us do 
something--they do not say let us do something corrupt, but 
they figure out something that nobody is doing which probably 
means it is corrupt. And they do it. And what you do, you 
invest the money. You help them get some money they could not 
get any other way. And once the seed you planted starts to 
grow, whatever it might be, then it permeates the area.
    In Ghana, we built the largest refrigerator in the world I 
call it. It is a chilling five plantations--five or six 
plantations that were put together. They were independent. They 
now shift pineapples, have 3 months longer shelf life, it gets 
a lot better return. And that country's pineapple business is 
just going crazy now because we helped through Millennium 
Challenge to build a way to get those pineapples across the 
Atlantic Ocean to America and our market. And we did it by 
building a big refrigerator out in the middle of five 
plantations in the middle of Ghana. They could not have done 
that. The idea of working together to build one refrigerator 
for five plantations was unheard of. They did and now they are 
competing in the world market. So those are the kind of things 
you can do.
    But also the Port of Cotonou, which is next door in Benin, 
was closed. You tell me when I am right on this. We gave them a 
Millennium Challenge contract. It was awarded to them. And the 
first review period--and they have to comply with all the 
things. We caught them. They were below 50 percent on 
compliance. So we cut their money off in the middle of the 
project, and they lost the project and they lost the money.
    Then they came around in the next cycle. They reapplied to 
Millennium Challenge, and Benin had one of the best compliance 
records they could have. So getting the money, having to make a 
good decision. Losing the money killed us. And then getting the 
money got us finally to finish our product and changing the 
laws in Ghana with regard to employment.
    In business, in New Jersey business, I know how you do 
business in New Jersey. I have been up there a few times. There 
is a price to pay if you do not do it right. There ought to be 
a price to pay in every business if you do not do things right. 
And when you are taking the taxpayers' money and investing it 
and it works, it is a good thing to do. So I commend the 
ranking member on his focus on that part and commend Millennium 
Challenge as a way to two ends, further economic development in 
foreign countries, but even more than that, compliance with the 
labor practices.
    And that is enough.
    The Chairman. Did you have a question, Senator Isakson?
    Senator Isakson. I like to make speeches.
    [Laughter.]
    The Chairman. They have been good.
    Senator Cardin.
    Senator Cardin. For the benefit of those that are here, 
yesterday we had an opportunity as a Senate family to express 
our appreciation to Johnny Isakson for his long service in both 
the State legislature, the House, and now here in the Senate. 
He truly believes that bipartisanship works, and he is an 
example of so many things getting done.
    The Millennium Challenge Corporation is an example of 
bipartisan work here of getting something done. It was there to 
make consequential change. I sort of think it was modeled after 
PEPFAR as for health care what MCC can do for economic growth 
for countries that are relatively poor, that have the desire to 
be democratic states in which our participation can help them 
with their economic power, but to preserve and strengthen the 
democratic principles. And that is what the principles of MCC 
have been about. So I am a strong supporter of it.
    I want to talk a little bit about the resources and how the 
resources are being used. I know the standards that you use to 
judge the different requests for funding. But when I look at 
our own hemisphere and see that we only have one compact in our 
hemisphere, to me I know that there are other countries who 
could benefit from a compact here in our own hemisphere.
    I know that we have moved towards regional compacts, and I 
would like you to give your view because I think particularly 
in our hemisphere, regional compacts make sense. Central 
America would make sense. Other parts would make sense. And 
just to get your view as to why--is it a matter of resources or 
is it a matter of lack of interest? Why do we not have more 
compacts in our own hemisphere? And are you pursuing regional 
compacts in order to deal with what Congress has desired?
    Mr. Cairncross. Sure. With respect to Central America, we 
do have a compact with a year to go in El Salvador. We are in 
Guatemala on a threshold program.
    Senator Cardin. One compact. I think you only have one.
    Mr. Cairncross. That is right. That is right. But we do 
have a threshold program in Guatemala, and we just wrapped up a 
threshold program with Honduras as well. That is governed, 
Senator, by our selection criteria. So it is a scorecard and 
income--the need/merit model that we base the selection on. And 
so that is the reason we are where we are in Central America 
with respect to the countries that we are in.
    And like I say, we had a great trip to El Salvador, and 
that administration, the Bukele administration, has taken great 
strides to turn around a compact that was not performing as 
well as we wanted it to, and in the first 100 days of that 
administration, the disbursement rates have gone up. We have 
launched that public-private partnership, which had been 
stalled under the previous administration. So it is a good 
story, and I am happy to be talking about it.
    With respect to regional compacts, as you know--and thank 
you to the committee for the support for the concurrent compact 
authority. That is new authority, and the way that the board 
went about selecting the first round of regional compacts last 
year was to select a pool of countries. And so that was West 
Africa. There are five countries in West Africa, and the 
criteria were we wanted contiguous borders. We wanted to be 
engaged in at least a first compact when they were selected for 
a regional.
    And so MCC has gone about scouting projects and 
prioritizing projects within that pool. And given that it is a 
new authority and it is somewhat more complex than doing just a 
single state compact, we want to make sure getting out of the 
gate that that first compact is successful. There are a host of 
administrative challenges and others that we are dealing with 
and working through, and we expect that we are making excellent 
progress on it. But we would be happy to entertain in the 
future regional compacts elsewhere other than Africa.
    Senator Cardin. When MCC was created under the Bush 
administration, it was anticipated that the budget support 
would be greater than it is today, much more funds than it is 
today. My question to you is as a matter of resources. If you 
had more resources, do you have the opportunities around the 
world to use that consistent with the mission of MCC, and 
should we be looking at areas of development that we could be 
engaged in but we are prevented because of resources?
    Mr. Cairncross. So the answer to the overall question is 
yes, Senator. And specifically I think what we could do, given 
our model in particular on selection and the criteria that we 
use, which I think is the core of the agency and what has made 
it very successful--with more, we could do more. The leveraging 
power that we have with the grant funds that we operate with 
now is remarkable in my opinion, and it allows us to target the 
sort of institutional and policy reforms that other development 
dollars or private capital is not really able to get at 
specifically. And with greater incentive, we could do more.
    For example, we are in Cote d'Ivoire. Cote d'Ivoire has 
been an excellent partner. Part of President Outtara's cabinet 
is incorporated to address MCC's criteria specifically. We are 
developing the Aqaba roundabout and the Abidjan infrastructure 
piece so that traffic can flow more freely. But if we could 
also work on that transportation corridor between, for example, 
Rakina, it would increase our impact. It would increase the 
economic impact and would increase the incentive that we have 
not only for our partner countries that we are working with but 
for those who want to engage with MCC.
    Senator Cardin. That is helpful.
    Mr. Chairman, it would be helpful if you could get us 
information as to where additional resources would be used, if 
made available, for those of us that are trying to get you more 
support in regards to congressional appropriations.
    Mr. Cairncross. I appreciate it, Senator, and we are very 
happy to follow up.
    Senator Cardin. Thank you.
    The Chairman. Thank you, Senator Cardin.
    Senator Young.
    Senator Young. Thank you, Chairman.
    Mr. Cairncross, great to see you. Good visiting with you 
the other day, and I enjoyed our conversation there.
    I am going to pick up on a couple of topics we were not 
able to discuss, one being your really important work 
partnering with Ivanka Trump and the White House and USAID on 
global empowerment of women. I just think that is essential. 
The more and more that I hear from development experts 
increasingly, I look to this as a key component of ensuring 
there is sustainable development in these developing countries.
    So is it your intention--perhaps there are ongoing 
efforts--to institutionalize this emphasis on women's economic 
empowerment?
    Mr. Cairncross. Absolutely, Senator. First, I think it is 
just basic. You cannot have a successful economy if 50 percent 
of your population is locked out of it. And the data backs that 
up to boot.
    MCC has always taken this issue seriously. We had a gender 
inclusion unit in 2006. In 2019, we expanded our gender in the 
economy indicator not only to take in more data. So rather than 
10 different data points in an economy for gender inclusion, we 
are now at 40. And this is something that, yes, absolutely we 
will be pressing ahead on, and we are looking to design on the 
economic analysis of our projects--take that gender lens and 
make sure that that is part of it because it touches so many 
pieces of what we do.
    Senator Young. And you mentioned data. Really MCC is known 
for not only collecting data but really sort of rigorously 
evaluating what you have, holding people accountable to 
results, measuring success. And I think that has had some 
positive spillover effects throughout the Federal Government. 
So I want to commend all of those working at MCC for that point 
of emphasis.
    You know, one of the threshold questions, building on the 
line of inquiry from Senator Cardin about resources, is we now 
have a Development Finance Corporation created through the 
BUILD Act. I am proud of that piece of legislation and DFC. I 
see high promise for its future. But it is unclear to me 
whether DFC is regarded perhaps incorrectly, and I will give 
you an opportunity to disabuse us of that. Is DFC regarded as a 
competitor to MCC in some respects, or are they complementary? 
I want you to speak to that issue.
    Mr. Cairncross. Sure. First, we are very excited and thank 
you to the committee for the support of the BUILD Act. I think 
it is a great thing that the DFC is coming online. Absolutely 
do not view it as a competitor. I view it----
    Senator Young. I thought you would say that.
    Mr. Cairncross. I view it as--on the development arc, MCC 
occupies the space prior to private capital coming in and 
making those investments. And we concentrate on the enabling 
environment. So what is important for DFC, and frankly what 
OPIC does now, is identifying what are the risks, what are the 
things that are holding back that investment in an economy, and 
how can MCC work to target those reforms and decrease those 
risks and make sure that the government of our partner 
countries are focused on that sort of reform as well.
    Senator Young. That is really helpful. So I mean maybe we 
can think of this almost like a startup business. It is 
analogous. Right? You require venture capital early on and then 
private equity comes in and so forth. So they are 
complementary, as you described. We need to keep that in mind 
as we think about resource allocation in the areas like you 
mentioned. There are still some opportunities to invest in MCC.
    China. Their global influence is broadly understood to be 
on the rise. They have a different development model, one that 
is predatory in nature oftentimes through their Belt and Road 
Initiative. This is a different model. This is one that does 
not aim to breed dependency, but instead self-reliance. How can 
we better leverage through our development and our diplomacy 
efforts, through our global public relations efforts, the good 
efforts of MCC to demonstrate that we are a better partner for 
developing countries?
    Mr. Cairncross. Well, Senator, I think that is absolutely 
right. We are not designed to compete on scale in any way with 
Belt and Road, but MCC is a tremendous face for an alternative 
model and it is one of self-determination. It is one of 
openness and transparency. It includes the civil society of a 
government, makes a government more responsive to its people. 
So that is something that we try to leverage, and it is a great 
story--this agency. And I think that story needs to be told to 
more and more people.
    And so one of the things that I have tried to do is meet 
internationally and domestically with members of the private 
sector in particular to make clear what we are doing. And the 
response to that, and also the response of the partner country 
governments that I have dealt with, is overwhelmingly positive. 
And one in particular was very direct and said before MCC came 
to our country, we did not know how to bid these projects out 
in the right way. We were talking a different language to the 
private sector. We want U.S. company engagement. We want 
private sector engagement. The state-owned enterprise model has 
not been positive for us. We want further engagement. Help us 
more. And I think that is very important.
    And I would welcome the committee's ideas and support on 
ways to communicate that more broadly.
    Senator Young. Well, I think each Member of Congress, 
particularly members of this committee, have an opportunity and 
a responsibility to tout the successes of MCC, to talk about 
how this is a model, as I indicated, designed to ensure that 
countries are self-reliant in the future.
    Through my line of questioning, I did not want to suggest 
in the slightest that word is not getting out. In fact, the 
best evidence, as you and I discussed the other day, that word 
is getting out about the efficacy and attractiveness of this 
model is the fact that the non-compact neighboring countries 
and regional countries and even some countries further afield 
are making efforts to become compact-eligible. So the mere 
possibility of receiving the funding and the technical 
assistance associated with MCC is enticing. And I just commend 
you and your entire team for your leadership.
    Mr. Cairncross. Thank you, Senator. And I think it is 
important. Oftentimes the focus is on what MCC does and the 
hard infrastructure projects, but just as important is how we 
do it. That, frankly, is even more lasting and powerful in 
terms of open procurement, merit-based hiring, the sort of 
personnel standards that the MCAs in country have to follow, 
the stakeholder buy-in and the community work that needs to be 
done.
    I have sat with beneficiaries, in particular in El 
Salvador, who began by telling me they were very skeptical of--
it was a water treatment project that we were doing. They were 
skeptical of the effects on that particular village, but they 
appreciated the government's effort, their own government's 
effort, to engage with them and walk them through what the 
benefits of this would be. And they are now supportive of it. 
And that sort of relationship between civil society and our 
partner countries, the government, I think is a great story for 
what we are doing in country.
    Senator Young. I agree. Thank you.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you.
    And thank you, Mr. Cairncross, for being here today and for 
your service at the Millennium Challenge Corporation.
    I want to follow up a little bit on Senator Young's 
questions about women's empowerment and support for that 
through MCC.
    I understand that last month you traveled to Morocco with 
Ivanka Trump. I was very happy to see that MCC signed an 
agreement with the Government of Morocco to promote female land 
ownership within the framework of the Women's Global 
Development and Prosperity initiative, the W-GDP.
    So can you talk a little bit more about how MCC works with 
the Office of Global Women's Issues at the State Department to 
prioritize women's economic empowerment?
    Mr. Cairncross. Sure. Senator, our interagency 
communications with all our board members are very strong, and 
women's economic empowerment--it is called WEE internally--is 
something that I put at the top of the priority list. And in 
fact, it now is being baked into every aspect of what we are 
doing on our project-by-project basis. But we have had 
tremendous interagency support from the State Department, from 
USAID, from the White House on this effort.
    Senator Shaheen. So if Kelley Currie is confirmed as 
Ambassador at Large for Global Women's Issues, how would you 
see things changing, or would you see--I am assuming that with 
leadership in that position, that that is helpful as we think 
about how we implement W-GDP. But do you see any changes that 
will occur in the working relationship and how you continue to 
foster women's empowerment?
    Mr. Cairncross. Senator, I think the only change that I 
would see would be in a positive direction. The more 
engagement, the better. I am sure we will, upon her 
confirmation, meet very quickly. I would be happy to do travel 
but make sure that we are focused on these issues 
collaboratively. I know it is one of the best dollar-for-dollar 
investments that we make as an agency.
    And I just have to say it is tremendously rewarding to be 
in country and talk to the beneficiaries, and it is remarkable 
what a missed opportunity this is in so many places and it has 
been for so long. So it feels great to be part of a team that 
is working on it.
    Senator Shaheen. Good. Thank you.
    I now want to switch to the Western Balkans because that 
continues to be a part of Europe that faces challenges, many of 
them economic, and their economic success is critical to their 
Western integration and integration into the transatlantic 
community. I know that is a place where China is increasingly 
investing in the region.
    So I was pleased to see that in September of 2017, MCC and 
the Government of Kosovo signed a $49 million threshold program 
to implement policy and institutional reforms in the areas of 
energy and rule of law. So can you update us on how that is 
going in Kosovo, whether there are other things that we should 
be thinking about in Congress as we try and support what is 
happening there?
    Mr. Cairncross. Sure. We do have the ongoing threshold 
program in energy efficiency and rule of law. But we also are 
in development on a compact that will be in the energy sector 
as well. And so that will be the larger infrastructure project, 
the 5-year project. And like I say, that is in development, but 
we expect to continue to work closely with the committee and 
its staff so there is full eyes on what we are doing in Kosovo. 
But the threshold program is proceeding well. We are pleased 
with it, and that is frankly the reason why we are proceeding 
on a compact.
    Senator Shaheen. So what does that mean for next steps? You 
said you are looking at a 5-year horizon on the compact.
    Mr. Cairncross. So the way that goes, Senator, is it is in 
the same sector. It will be an energy sector compact. And we 
have gone through the initial constraints analysis and root 
cause analysis. So we are now looking at the various projects 
that would address those core constraints on economic growth. 
Once we have identified those, it will go through the 
investment management committee internally, but we will be in 
close contact with the committee and we will keep you updated 
as we are updated.
    Senator Shaheen. And are there other neighboring countries 
in the Balkans that you think are potential candidates for 
working with MCC?
    Mr. Cairncross. Well, the nearest, Senator, in the region 
would be Georgia where we just wrapped up a second very 
successful compact. They have now graduated out of our income 
pool. And I am happy to follow up with more information, but I 
do not believe that there is a candidate country that is on the 
cusp in the region.
    Senator Shaheen. What about Bosnia? Is that a place where 
you have done any work and have had any discussions with folks?
    Mr. Cairncross. We have not, Senator. Again, this comes 
back to our selection criteria, and I do not know, sitting 
here, where they stand on our scorecard, but I am happy to 
follow up with your office on that.
    Senator Shaheen. That would be great. I appreciate that. I 
think Bosnia is one of the other countries in the Western 
Balkans that has significant economic challenges, and if there 
are ways that we can encourage them to continue to look West, 
it is really important to do that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Shaheen.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, Mr. Cairncross, for your service and testimony 
today.
    When I came into the committee hearing, you were talking to 
Senator Young about the BUILD Act and some of the work that we 
have done in this committee regarding that legislation.
    We have also passed legislation, the Asia Reassurance 
Initiative Act. A number of members of this committee helped 
provide $1 billion over 5 years to the State Department's human 
rights defenders fund. That is just one of the things that ARIA 
would do.
    We recently passed the Taiwan Allies International 
Protection and Enhancement Initiative, the TAIPEI Act, which 
talks about how we can help improve Taiwan's standing around 
the world. And it comes in response to increased Chinese 
pressures, quite frankly bullying tactics, intended to restrict 
Taiwan's international space and global diplomatic recognition.
    MCC obviously plays an important role in our foreign policy 
and the efforts to build economies, to engage countries with 
good governance. You talked about contractual opportunities to 
improve the rule of law.
    In December of last year--I believe it was--MCC entered 
into an agreement, or entered into an opportunity, with the 
Solomon Islands to fund a program. But in September, the 
Solomon Islands switched their diplomatic relations to Beijing. 
So MCC did this in December of last year, and Beijing convinced 
them to switch their recognition in September of this year.
    So could you talk about maybe some of the strategic 
thinking that MCC had back in December and what implications 
the switch in September means and whether or not we should 
change our course with Solomon Islands going forward?
    Mr. Cairncross. Sure. Senator, we are with a threshold 
program in the Solomon Islands. The MCC board selected the 
Solomons as a partner country. MCC's focus on poverty reduction 
through economic growth and that singular laser focus is what I 
believe has kept the agency successful, and adherence to that 
model has maintained a strong bipartisan support for a long 
period of time.
    And so we look at--when we are making board selections, the 
agency looks at the arc of a country and the trajectory that 
they are on. Is this a country that is trying to do the right 
thing and worthy of our support and stamp of approval? And so 
when something happens in the interim, we of course have to 
assess what the impact of that is, and if it is still in 
alignment with our eligibility criteria and they are adhering 
to what they said they were going to do.
    I understand and I appreciate the concern that you have on 
that particular issue, and that is something that we are 
monitoring and talking about as an agency and a board.
    Senator Gardner. And if you look out in other countries 
that perhaps are under the same or similar pressure from 
Beijing, does that enter into the conversations you have with 
those countries?
    Mr. Cairncross. It does, Senator. And the difficult thing 
is, like I say, we really are not designed to compete on scale. 
So what we are is an alternative model. And I believe that what 
we bring with that model is very powerful. It is a signal not 
only to the stamp of approval for the government and a 
knowledge transfer on a process of how to execute a sustainable 
project that will be long-lasting and has your own people's 
buy-in. But it is also a signal to the investment world and 
capital looking to come into a market that this is some place 
worthy of a further look. And so that is something that is a 
powerful leverage tool for us.
    Like in Cote d'Ivoire, when I was talking about with the 
Bechtel MOU, so that is a great example of--that will produce a 
prioritized list of national infrastructure planning that the 
government of Cote d'Ivoire has signed off on. We have signed 
off on as signatories to it. And it has been produced by an 
American, but highly specialized, competent firm. And so were 
projects to be engaged that are not on that list, it would 
raise questions as to who was making those decisions, how they 
were being made, and then it would be publicly known for the 
people of Cote d'Ivoire that that was not on the list. And so 
that is the sort of thing that I think we can bring to the 
table and serve as a great point of leverage for the United 
States.
    Senator Gardner. Great. Thanks, Mr. Cairncross.
    Thanks, Mr. Chairman.
    The Chairman. Thank you.
    The ranking member has, I think, some more questions for 
you. Before we do that, I just want to briefly touch on a 
couple of points, and that is, can you give me a general 
thought about your thinking on your relationship with the new 
International Development Finance Corporation, realizing that 
is a work in progress and it is getting stood up? You know, it 
is not exactly what you do, but it is related and it seems to 
me needs to dovetail. What are your thoughts on that?
    Mr. Cairncross. I have had a great several meetings with 
Adam Boehler, the recently confirmed head of the agency. We are 
looking forward to the agency coming fully online. And we have 
had a great relationship with OPIC in the past as well and 
continue that.
    We talked about ways to work together so that there are 
full eyes on our pipeline, what we are doing in country, and 
then what their pipeline looks like, and in particular, what 
their investors, as I said, are worried about in these markets. 
What are the risk factors? What are the concrete things that 
hold back investment in a market? There is a lot of talk about 
corruption or rule of law conceptually, but I think I am a fan 
of targeting concrete things that can be changed and measured. 
And that is what we are seeking collaboratively to identify.
    The Chairman. I appreciate that.
    On a more parochial note, my State has a number of 
connections with Mozambique. And I was there this summer, and 
obviously there are some reasons to be concerned there. I 
wonder if you could give me your thoughts on that and if you 
think that Mozambique is still eligible under your checklist. 
Could you give me your thoughts on that, please?
    Mr. Cairncross. Sure. I understand and appreciate the 
concerns. You are talking about the recent elections, Senator?
    The Chairman. Yes, amongst other things, but certainly that 
is one of them.
    Mr. Cairncross. Mozambique passes the scorecard this year. 
They have been a strong scorecard performer historically. And 
this is a place where we have engaged in a compact in the past. 
That compact was largely successful moving forward. There are 
some implementation issues that I know are being focused on an 
addressed currently. But it is a country that qualifies and I 
believe in every environment where we work, we face hard 
challenges. We do not work in easy places, and Mozambique is no 
different. So any engagement with any partner country is 
reliant on an expression and a commitment by the partner 
country government to engage in the sorts of reforms that we 
are trying to achieve.
    The Chairman. I understand that, and obviously if it was an 
easy place, there would be no need for you to be there. So I 
understand the challenges in that regard.
    One of the things that always strikes me about developing 
countries is how quickly they can go south on you. And that is 
something that is always of concern. So I would underscore the 
need for you, for your agency, when you start seeing symptoms 
or you start seeing evidence, that you act quickly to try to 
turn the thing around because we have seen lots and lots of 
examples about how quickly these countries can slip off the 
edge.
    Mr. Cairncross. Senator, I think, as I said in my 
statement, I think accountability and the agency's credibility 
is what has made it as successful as it has been. I also 
believe in open and frank communication with our stakeholders, 
our board members, this committee, and making sure people have 
an understanding of the situation in country and what we are 
doing. So I would expect that that relationship would continue.
    The Chairman. I appreciate that.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    I just have some compact-specific questions.
    MCC recently initiated the termination of the $190 million 
compact with Ghana because of irreconcilable differences 
surrounding the host government's disputed allegations of 
fraud. And I think you were all acting appropriately. But I 
want to get a few assurances on a few matters here.
    What impact will these returned funds have on MCC's budget? 
For example, will it affect your fiscal year 2021 budget 
request? Will you advocate for maintaining MCC's annual budget 
request despite these funds returning to the MCC budget?
    Mr. Cairncross. Yes, Senator. I will advocate for that. I 
do not view the de-obligation of those funds as tied to a 
budget request. I think that making it a zero sum game would be 
bad for at least two reasons. The first is just the precedent 
of a lower request or a lower number would be hard to then 
change. And just as importantly, I think that it would skew 
compact agency decision-making on the accountability side. And 
so, like I say, I think that is an existential matter for the 
agency. I think without that credibility, we would be unable to 
function.
    Senator Menendez. I agree with you. Will you commit to 
dutifully applying these funds appropriately to MCC operations 
and programs?
    Mr. Cairncross. Absolutely.
    Senator Menendez. What lessons from the experience are you 
applying to the rest of the Ghana compact?
    Mr. Cairncross. Sure. Senator, well, one of the lessons is 
that having a measurable points of conditions precedent and 
tranching out the money in a measured way is of vital 
importance. And we are engaged in Ghana with $308 million in 
the remainder of that energy compact. We are working diligently 
with them to make sure that that is as successful as possible, 
and our team is looking at ensuring that that remaining compact 
is as impactful as possible. And the Government of Ghana has 
committed to infusing its own capital into our compact as well. 
And so I think that that is a good partnership.
    Like you say, there were irreconcilable differences for the 
disbursement of that $190 million. The key component of that 
was the privatization of the state power utility and that 
concession moving forward. These are sovereign nations, 
Senator. Sometimes they make a different decision. All we can 
do is be clear about what the consequence is with respect to 
the grant money that we are engaged in that contract or that 
compact with them before it goes out.
    Senator Menendez. Let me turn to Sri Lanka. They just 
elected Gotabaya Rajapaksa, who is implicated in war crimes and 
human rights violations during the civil war, as its president. 
He named his brother Mahinda, also suspected of war crimes and 
human rights abuses, as prime minister and minister of several 
other ministries, including finance and economic affairs. And 
another brother has been placed in charge of multiple 
ministries. There must be a dearth of human talent in the 
country.
    The new foreign minister has said that the government will 
review and revisit the 2015 U.N. Human Rights Council 
resolution promoting accountability and reconciliation 
following wartime abuses. That word ``review'' to me signals a 
backsliding on these commitments, not progress.
    So I state all those facts to get a sense from you. Will 
this change in government affect MCC's compact? What discussion 
has MCC had with the new government regarding its eligibility 
to proceed with the compact? And if the election is not 
disqualifying on its face and instead you see the compact as 
leverage for gaining a commitment to reform or a public embrace 
of them protecting human rights, what form of proof of that 
commitment will MCC need the new government to deliver in order 
to proceed with the compact?
    Mr. Cairncross. Sure. Well, Senator, just to back up and 
add a little bit of context, the Sri Lankan cabinet did approve 
the compact immediately prior to the election. MCC deliberately 
did not sign that compact in order to see the outcome of that 
election and then to make an assessment about what the new 
government would look like and whether or not this is a 
government that is responsive to the people of Sri Lanka.
    And so moving forward, at a bare minimum what MCC would 
need to see is an expression of support and embracing the sort 
of reforms that we are targeting in that compact, that this is 
something that is beneficial to the Sri Lankan people. But we 
have had a very, I believe, good and open dialogue with your 
staff and the committee staff on this question. We are 
continuing to monitor this very closely, and I expect that we 
will be in close communication moving forward, certainly before 
we make any decision.
    Senator Menendez. Do you envision any conditions that may 
constitute a violation of this compact based on Rajapaksa's 
history?
    Mr. Cairncross. Senator, I am not sure I have a great 
answer for that question because I do not know what this will 
look like moving forward. But I do know that we will be 
requiring, like I say, at a bare minimum, a strong expression 
of support by the new government for the reforms that we are 
pushing for the Sri Lankan people.
    Senator Menendez. We will be looking forward to see what 
those expressions are.
    Let me turn to Mongolia for a moment. They are pursuing a 
$350 million compact to improve capacity and access to safe 
drinking water supplies. That is good stuff, as well as funding 
responsible industrial uses for reclaimed wastewater.
    But I have concerns about how the Mongolians plan to meet 
two specific conditions of the compact I mentioned in my 
opening statement. One is to address, rather than service, the 
water authority's $73 million debt with a shell game that would 
move the debt off the utility books and put it on the books of 
another department within the government.
    Additionally, the Mongolian Government has yet to develop a 
sustainable financing policy to cover long-term maintenance and 
operation of the new water system. They view raising revenues 
as a political problem and, in my mind, seem rather cavalier 
about developing an appropriate revenue mechanism.
    Would MCC approve of a country moving debt around on its 
books as an adequate solution for addressing complying with the 
compact's outstanding debt service requirements?
    Mr. Cairncross. Two parts to that answer, Senator. The 
first is with respect to the tariff regime. That is something 
that we are engaged in working with the Mongolians on. It is 
vital to the sustainability of the project. There have been 
increases in that tariff since we began working with them. Of 
course, tariffs related to water are tricky issues, but this 
something that the government has committed to us as part of a 
condition to move forward on.
    With respect to the debt, it is a sovereign debt for the 
Government of Mongolia, and our engagement with this has 
identified that debt and it is now a public issue. People are 
aware of it, and the government is forced to deal with that 
debt. And we are engaged in trying to find ways to help them do 
so. But this is typically, in many cases, debt that is hidden 
off the books. The people of the country are not aware of it. 
The government does not discuss it. It is now in the open, and 
it, per your question, in a hearing needs to be addressed.
    Senator Menendez. I understand and appreciate it is a 
sovereign debt. But like every sovereign decision, to the 
extent that we are going to engage and commit money, we have an 
opportunity to raise the question. I would hate to see a 
precedent where just moving debt around on a ledger sheet 
somehow is the way in which we meet with financing obligations 
at the end of the day. And so I just commend that to your 
attention as a concern.
    And then finally, I have one or two others, but I am not 
going to belabor it. I will submit them for the record.
    But on Morocco, its last MCC compact wrapped up in 2013 
after spending about $650 million on projects that included 
improving fruit tree productivity, supporting local artisans, 
improving production for small scale fisheries.
    Yet between 2016 and 2017, Morocco saw widespread protests 
through the northern countryside against poor governance, 
corruption, unemployment, among other things. There remains 
widespread frustration at the lack of economic opportunity. It 
has pushed many young Moroccans to ultimately migrate to 
Europe, which has become one of the most significant, largest 
routes into Europe from Africa.
    So why was a second compact granted to Morocco so soon 
after the first?
    Mr. Cairncross. Senator, that was, of course, before I 
arrived at the agency, and I would be happy to follow up with 
you on the specific reasons, the board direction in that 
regard.
    What I can tell you is the part of the project that we are 
engaged in now is focused on human capital, in particular TVET 
training and even more specifically focused on women in the 
economy. And we have engaged one of the first cash-on-delivery 
programs in that regard, which is in order for MCC funds to go 
to the NGOs who are doing that job training, there has to be 
evidence that the trained individual has been gainfully 
employed for 6 months. And so that is seeing results. We toured 
an aviation facility, repair facility, and it was a fascinating 
look and frankly very inspiring to talk to the beneficiaries of 
the program. And so that sort of focus on human capital we hope 
has a good result for Morocco.
    Senator Menendez. Well, hopefully it has a deterring effect 
on human capital fleeing the country at the end of the day.
    Mr. Cairncross. That is right.
    Senator Menendez. The chairman could probably attest to the 
fact that I am sparing in my compliments. Unfortunately, these 
days I have not had a lot of reasons to do so from my 
perspective. But I must say you have acquitted yourself well 
here. If you follow through on the things that you said both in 
your answers to questions during your confirmation and what you 
have made here, I think we have a pretty good future ahead for 
the MCC.
    Mr. Cairncross. I appreciate it. Thank you, Senator.
    The Chairman. Thank you, Senator Menendez. Well said I 
think.
    And we are looking forward to your continued leadership 
there, Mr. Cairncross. Thank you for attending here today and 
briefing us.
    For the information of the members, the record will remain 
open until the close of business on Thursday. If there are such 
questions, we would appreciate that you get to them as quickly 
as possible so that we can conclude the hearing transcript.
    So with that, this hearing is adjourned.
    [Whereupon, at 11:18 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Responses of Hon. Sean Cairncross to Questions 
                  Submitted by Senator Robert Menendez

    Question. Prior to your confirmation, it became evident that the 
White House Presidential Personnel Office (PPO) was using MCC's 
generous allotment of AD slots to provide political patronage jobs to 
Trump loyalists with questionable qualifications. Brock Bierman, during 
his brief stint as acting CEO, took this issue seriously though was 
fired before he could act to resolve these issues. Do you intend to 
pick up where he left off or execute a similar plan to evaluate the 
appropriate use of MCC's hiring authorities?

    Answer. The needs of the agency and the mission drive hiring 
decisions at MCC. Those decisions are based on the qualifications of 
the individuals and the needs of the roles that they will fill. MCC's 
hiring decisions, since I have been at the agency, have been MCC's 
decisions.

    Question. I will not rehash Robert Blau's transgressions, other 
than to say that he made statements to MCC personnel that were 
culturally offensive and highly inappropriate in any work environment, 
let alone a federal agency. Thankfully, Mr. Blau is gone. His words 
still raise concerns about MCC's commitment to workforce diversity. 
This committee must understand that his legacy is not having a lasting 
impact on MCC. How do you feel a diverse workforce at MCC enhances the 
Agency's effectiveness?

    Answer. One of my top priorities is human capital and ensuring 
MCC's talented, diverse and dedicated staff are fully empowered to do 
their best work. I feel strongly that diversity improves the decision 
making of any organization, particularly an international development 
agency like MCC. I have made my position on this very clear to staff--
starting my second day on the job during an agency all-hands meeting--
and believe it has resonated throughout the agency.

    Question. Morale was reportedly very low among MCC staff throughout 
2017 and 2018. What steps have you taken to restore morale among MCC's 
workforce?

    Answer. I take staff morale very seriously and I make an effort, 
every day, to continuously improve staff engagement. For example, I've 
taken steps to improve transparency and communication around key agency 
decision points. These steps include holding structured listening 
sessions with staff, hosting a senior leadership retreat to set common 
goals and objectives, and then providing all staff an opportunity to 
weigh in and ask questions. I also opened up MCC's annual budget 
planning to all staff so that the team understands how and where 
resources are being spent. Additionally, I've met with many of MCC 
internal groups including the Women's Leadership Group, the MCC Family 
Group, the Women's Economic Empowerment Working Group and nearly every 
country team for each of MCC's country programs to open lines of 
communication and show my support for their work. I routinely walk the 
halls of MCC to ensure that I am plugged into staff morale throughout 
the agency and that I hear directly from them on their ideas, thoughts, 
and concerns.

    Question. MCC recently initiated the termination of $190 million of 
its compact with Ghana because of irreconcilable differences 
surrounding the host government's disputed allegations of fraud. I need 
assurances on a few matters. What impact will these returned funds have 
on MCC's budget? Will it affect MCC' FY21 budget request?

    Answer. The Ghana Compact partial termination and pending de-
obligation is not tied to MCC's budget request. MCC's budget request 
would not influence country eligibility decisions; rather, these 
decisions are based in our core principles of accountability. While MCC 
is still assessing exactly how the de-obligated funds will be spent, 
they will be dutifully applied to MCC's compacts and threshold programs 
currently under development.

    Question. MCC is pursuing a $350 million compact to improve system 
capacity and citizen access to safe drinking water supplies as well as 
funding responsible industrial uses for reclaimed wastewater. The 
Mongolian government has yet to develop a sustainable financing policy 
to cover long-term maintenance and operation of the new water system. 
What is MCC doing to promote or pressure Mongolia to be more 
responsible with its approach to project finance?

    Answer. MCC's $350 million compact with Mongolia aims to sustain 
private sector-led growth in the country's capital city of Ulaanbaatar 
by increasing its available supply of water through the introduction of 
new wellfields, plants for water purification and wastewater recycling, 
and capacity building initiatives. Central to the compact is the 
Mongolian government's commitment to the long-term sustainability of 
Ulaanbaatar's water sector, including the financial sustainability of 
its utility. The compact contains several conditions precedent to 
enable long-term sustainability in the sector, including a requirement 
that--prior to any disbursement of funds or commencement of civil 
works--the Mongolian government address the utility's existing long-
term debt. Further, the Mongolian government is required to adopt a 
plan that achieves full recovery of the costs of its operations, 
maintenance, and depreciation, through practical and sustainable 
increases in water and wastewater tariffs and fees. MCC will then 
support the Mongolian government's implementation of the plan during 
the 5-year compact program through a variety of sustainability measures 
and policy reforms, such as: studies to inform equitable changes to its 
tariff structure; improvements in data sharing, planning, and 
coordination among municipal agencies; and interventions to strengthen 
operational capacities of Ulaanbaatar's water utility.

    Question. Secretary of State Pompeo, at the direction of the 
President, has suspended nearly all foreign assistance to El Salvador, 
Honduras and Guatemala administered by both the State Department and 
USAID. Fortunately, MCC's programs in El Salvador and Guatemala have 
avoided the draconian and misguided budget axe OMB is wielding over 
State and USAID. A serious approach to addressing the migrant crisis 
from these countries must include efforts to address the root causes of 
migration, which for many is the absence of economic opportunity. How 
is MCC measuring the impact its compact in El Salvador and threshold 
program in Guatemala are improving economic opportunities for 
vulnerable populations that are likely to attempt migrating North?

    Answer. MCC's mission to reduce poverty through economic growth--
and as such, our programs aim to consolidate democratic and free-market 
reforms to improve the existing economic conditions in part to activate 
sustainable job creation for a country's citizens.
    MCC's compact in El Salvador seeks to improve economic 
opportunities for its youth primarily through its investments in 
education and technical and vocational training, complemented by 
additional investments to promote economic growth and private 
investment in the country. MCC is supporting interventions such as 
increased classroom time and teacher training in approximately 349 
schools in the coastal zone of El Salvador where dropout rates are the 
highest, with a focus on grades 7-12. Additionally, MCC's assistance to 
reform the country's technical and vocational training aims to reduce 
the gap between the skills demanded by the labor market and those 
supplied by the educational system and training providers. These 
complement the compact's investments to reform El Salvador's business 
environment and increase the productivity of firms engaged in the 
international trade of goods and services.
    The impact evaluation for MCC's compact in El Salvador will 
determine whether students attending a school within an integrated 
system are better off than they would have been without the 
intervention, using estimates to measure education outcomes such as 
graduation, promotion, dropout rates, and academic performance of the 
students. The study will also assess long-term impacts of the 
intervention on post-secondary education enrollment, employment, and 
income.
    In Guatemala, MCC is providing a $28 million grant to support the 
Government of Guatemala to improve domestic revenue mobilization and to 
improve the quality of education to provide Guatemalan youth with the 
skills they need in the job market. MCC is monitoring tax revenue as a 
share of GDP, customs revenue as a share of GDP, as well as time to 
import. MCC is also monitoring lower level outcomes related to audit 
quality and how well the risk model identifies non-compliant customs 
declarations. On the Education Project, MCC is working with the 
Ministry of Education to monitor learning outcomes of students and 
teachers and the enrollment rates of students. MCC is also funding a 
randomized controlled trial to assess the impact of the teacher 
training program on student learning outcomes.

    Question. There remains widespread frustration at the lack of 
economic opportunity that has pushed many young Moroccans to emigrate 
to Europe, which has combined with shifting migration patterns across 
Africa to make Morocco and the Western Mediterranean in general the 
largest route into Europe from Africa. What lessons were learned from 
both the earlier compact and the protests of 2016 and 2017 and how are 
those lessons being implemented in the current compact? How is this 
Morocco compact addressing increased migrant flows, of both Moroccans 
and transiting migrants, to Europe?

    Answer. The first compact in Morocco was successful, while the 
widespread geographical distribution of projects (in particular the 
Fruit Tree Productivity Project) was a management challenge. The second 
compact impacts many regions of the country, while it has for several 
activities (such as the Secondary Education Activity) been more 
concentrated geographically to facilitate improved management. In 
addition, the second compact with Morocco includes a significant focus 
on integrating policy and institutional reform as well as technical 
assistance into projects to help ensure long-term sustainability and 
impact.
    Addressing migration is not an explicit objective of the compact, 
but the compact seeks to improve the employment outcomes and job 
placement of Moroccan youth by improving basic and technical skills 
through the Education Project.

    Question. It is my understanding that a third compact for Georgia 
was under contemplation. I realize this idea may have only been in 
circulation prior to your arrival in the building but I need some 
assurances on the record that MCC is no longer contemplating this 
unprecedented idea. Is MCC considering a third Compact for Georgia?

    Answer. No
                               __________

          Letter to Jonathan Nash From Senator Robert Menendez

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
